No. 19-1158
In the

Supreme Court of the United States
AIRBUS HELICOPTERS, INC.,
Petitioner,
v.
MARY RIGGS, et al.,
Respondents.
On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Ninth Circuit

BRIEF OF RESPONDENTS MATTHEW
HECKER, ET AL. IN OPPOSITION
William J. K att, Esq.
Counsel of Record
Kevin F. Geary, Esq.
Wilson Elser Moskowitz
Edelman & Dicker LLP
740 North Plankinton Avenue,
Suite 600
Milwaukee, WI 53203
(414) 276-8816
william.katt@wilsonelser.com

Patrick J. Kearns, Esq.
Wilson Elser Moskowitz
Edelman & Dicker LLP
401 West A Street, Suite 1900
San Diego, CA 92101
(619) 321-6200

Attorneys for Respondents Matthew Hecker, Daniel
Friedman, Brenda Halvorson, Geoffrey Edlund, Elling
B. Halvorson, John Becker, Elling Kent Halvorson, Lon
A. Halvorson, Papillon Airways, Inc., d/b/a Papillon
Grand Canyon Helicopters, and Xebec LLC.
295702

A
(800) 274-3321 • (800) 359-6859

i
QUESTION PRESENTED
Whether a private party, such as Airbus Helicopters,
Inc., satisfies the “acting under” requirement for federal
officer jurisdiction under 28 U.S.C. § 1442(a)(1), merely
because it must comply with the federal laws, rules,
and regulations as set forth by the Federal Aviation
Administration, and has been provided the ability the
self-certify its own compliance with these regulations.

ii
PARTIES TO THE PROCEEDING
Inc.

Petitioner is Defendant-Appellant Airbus Helicopters,

Respondents are Plaintiffs-Appellees Mary Riggs,
in her capacity as Personal Representative of the
Estate of Jonathan Udall, Philip Udall, and Marlene
Udall (together, “Plaintiffs-Respondents”), as well as
Defendants-Appellees Matthew Hecker, Daniel Friedman,
Brenda Halvorson, Geoffrey Edlund, Elling B. Halvorson,
John Becker, Elling Kent Halvorson, Lon A. Halvorson,
Papillon Airways, Inc. d/b/a Papillon Grand Canyon
Helicopters, and Xebec LLC (together, the “DefendantsRespondents”), and Scott Booth.

iii
RULE 29.6 STATEMENT
Defendants-Respondents Matthew Hecker, Daniel
Friedman, Brenda Halvorson, Geoffrey Edlund, Elling B.
Halvorson, John Becker, Elling Kent Halvorson, Lon A.
Halvorson, Papillon Airways, Inc., d/b/a Papillon Grand
Canyon Helicopters, and Xebec LLC, make the following
disclosures:
• Matthew Hecker is an individual, not a corporation;
• Daniel Friedman is an individual, not a corporation;
• Brenda Halvorson is an individual, not a corporation;
• Geoffrey Edlund is an individual, not a corporation;
• Elling B. Halvorson is an individual, not a
corporation;
• John Becker is an individual, not a corporation;
• Elling Kent Halvorson is an individual, not a
corporation;
• Lon A. Halvorson is an individual, not a corporation;
• Papillon Airways, Inc., d/b/a Papillon Grand Canyon
Helicopters (“Papillon”) is a non-governmental
corporation. No publically held corporation owns
more than 10% or more stock of Papillon. There is
no parent company for Papillon.

iv
• Xebec, LLC (“Xebec”) is a non-governmental
corporation. No publicly held corporation owns
more than 10% or more stock of Xebec. There is no
parent company for Xebec.

v
RELATED PROCEEDINGS
• Mary Riggs, et al. v. Matthew Hecker, et al., Case
No. A-18-770467-C, District Court of Clark County,
Nevada, removed May 18, 2018
• Mary Riggs, et al. v. Matthew Hecker, et al., Case
No. 2:18-cv-00912, United States District Court for
the District of Nevada, remanded July 16, 2018
• Mary Riggs v. Airbus Helicopters, et al., No. 1816396, United States Court of Appeals for the Ninth
Circuit, judgment September 20, 2019

vi
TABLE OF CONTENTS
Page
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDING . . . . . . . . . . . . . . . . ii
RULE 29.6 STATEMENT . . . . . . . . . . . . . . . . . . . . . . .  iii
RELATED PROCEEDINGS  . . . . . . . . . . . . . . . . . . . . . v
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . vi
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . .  viii
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATUTORY PROVISIONS INVOLVED  . . . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 1
A. Statutory & Regulatory Background . . . . . . . . . 1
B. Factual & Procedural Background . . . . . . . . . . . 4
REASONS FOR DENYING THE PETITION  . . . . . . 7
A. The Ninth Circuit’s Decision Is In Line With
This Court’s Decision in Watson and Its
Reasoning that Federal Officer Jurisdiction Is
Not Appropriate When The Private Actor Is
Merely Complying With The Law. . . . . . . . . . . . . 8

vii
Table of Contents
Page
B. The Ninth Circuit’s Decision Does Not Create
a Split of Authority Among the Circuits, But Is
Instead In Line With The Circuit Courts That
Have Decided Similar Issues Post-Watson. . . . 15
C. The Rar ity Of This Issue Reaching
The Federal Circuit Courts Of Appeal
Since Watson A nd The Undeveloped
Factual And Legal Issues Below Render
Review By This Court Inappropriate and
Premature.  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25

viii
TABLE OF CITED AUTHORITIES
Page
Cases
Avco Corp. v. Sikkelee,
140 S. Ct. 860 (2020) . . . . . . . . . . . . . . . . . . . . . . . . . . 24
City of Greenwood v. Peacock,
384 U.S. 808 (1966) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
Davis v. South Carolina,
107 U.S. 597 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
Durham v. Lockheed Martin Corp.,
445 F.3d 1247 (9th Cir. 2006) . . . . . . . . . . . . . . . 2, 3, 21
Estate of Becker v. Avco Corp.,
387 P.3d 1066 (Wash. 2017)  . . . . . . . . . . . . . . . . . . . . 24
Estate of Hecker v. Robinson Helicopter Co.,
2013 WL 5674982 (E.D. Wash. 2013)  . . . . . . . . . . . . 22
Lu Junhong v. Boeing Co.,
792 F.3d 805 (7th Cir. 2015) . . . . . . . . . . . . . . . . passim
Magnin v. Teledyne Cont’l Motors,
91 F.3d 1424 (11th Cir. 1996)  . . . . . . . . . . . . . . . passim
Maryland v. Soper,
270 U.S. 9 (1926)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
Mesa v. California,
489 U.S. 121 (1989)  . . . . . . . . . . . . . . . . . . . . . . . . 21, 23

ix
Cited Authorities
Page
Sikkelee v. Precision Airmotive Corp.,
822 F.3d 680 (3rd Cir. 2016) . . . . . . . . . . . . . . . . . . . . 23
Sikkelee v. Precision Airmotive Corp.,
907 F.3d 701 (3d Cir. 2018) . . . . . . . . . . . . . . . . . . . . . 24
Swanstrom v.
Taledyne Continental Motors, Inc.,
531 F. Supp. 2d 1325 (S.D. Ala. 2008) . . . . . . . . . . . . 22
United States v. S.A. Empresa de Viacao Aerea
Rio Grandense (Varig Airlines),
467 U.S. 797 (1984)  . . . . . . . . . . . . . . . . . . . . . . . passim
Watson v. Philip Morris Companies, Inc.,
551 U.S. 142 (2007) . . . . . . . . . . . . . . . . . . . . . . . passim
Willingham v. Morgan,
395 U.S. 402 (1969) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Statutes and Other Authorities
28 U.S.C. § 1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
28 U.S.C. § 1442  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  1, 16
28 U.S.C. § 1442(a) . . . . . . . . . . . . . . . . . . . . . . . . . . 1, 2, 23
28 U.S.C. § 1442(a)(1) . . . . . . . . . . . . . . . . . . . . . . . . passim
49 U.S.C. § 40101 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .1

x
Cited Authorities
Page
49 U.S.C. § 4470(a)(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
49 U.S.C. § 44702(d)(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
14 C.F.R. § 21.22 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
14 C.F.R. § 21.33 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
14 C.F.R. § 183.63 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
14 C.F.R. Parts 1-147 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
14 C.F.R. Parts 170-171 . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

1
OPINIONS BELOW
The Ninth Circuit Court of Appeals’ opinion is
published at 939 F.3d 981 (9th Cir. 2019), and reproduced at
Pet. App. 1a-28a. The district court’s decision is published
at 325 F. Supp. 3d 1110 (D. Nev. 2018), and reproduced at
Pet. App. 29a-40a.
JURISDICTION
The court of appeals entered judgement on September
20, 2019, and denied a timely petition for rehearing or
rehearing en banc by order dated November 21, 2019.
See Pet. App. 41a-42a. On April 6, 2020, the Clerk of the
Court granted an extension of time within which to file
a response to the petition to and including May 22, 2020.
This Court has jurisdiction under 28 U.S.C. § 1254(1).
STATUTORY PROVISIONS INVOLVED
The federal officer removal statute, 28 U.S.C. § 1442,
and relevant portions of the Federal Aviation Act, 49
U.S.C. § 40101 et seq., are set forth at Pet. App. 43a-59a.
STATEMENT OF THE CASE
A. Statutory & Regulatory Background
1. Section 1442(a)(1), commonly known as the federal
officer removal statute, permits a defendant in certain
limited situations to remove to federal court a state court
action brought against the “United States or any agency
thereof or any officer (or any person acting under that
officer) of the United States or of any agency thereof, in

2
an official or individual capacity, for or relating to any
act under color of such office…” 28 U.S.C. § 1442(a)(1). A
party seeking removal under 28 U.S.C. § 1442(a)(1) must
establish that: “(a) it is a ‘person’ within the meaning of
the statute; (b) there is a causal nexus between its actions,
taken pursuant to a federal officer’s directions, and
plaintiff’s claims; and (c) it can assert a ‘colorable federal
defense.’” See Durham v. Lockheed Martin Corp., 445
F.3d 1247, 1251 (9th Cir. 2006) (citation omitted).
The sole issue at hand in this case is whether Petitioner
Airbus Helicopters, Inc., a private manufacturer, was
serving as a person acting under the FAA pursuant to
28 U.S.C. § 1442(a)(1) when it was merely complying with
federals laws, rules, and regulations. Both the District
Court and the Ninth Circuit Court of Appeals concluded
that Petitioner could not demonstrate it was acting under
a federal officer and therefore, found removal improper.
Neither the District Court, nor the Ninth Circuit reached
the other requirements. This Court has held that “the help
or assistance necessary to bring a private person within
the scope of the statute does not include simply complying
with the law.” Watson v. Philip Morris Companies, Inc.,
551 U.S. 142, 152 (2007) (emphasis in original).
This history and purpose of the federal officer removal
statute make clear that the statute does not apply to
private regulated commercial actors. See Willingham v.
Morgan, 395 U.S. 402, 406-07 (1969). Section 1442(a)(1)
was instead designed to protect federal officers from state
court civil or criminal actions that, because of the costs
and burdens of litigation in remote locations and the risk
of anti-federal prejudice, could hinder the enforcement
of unpopular federal laws. See Willingham, 395 U.S. at

3
406-07. Furthermore, “one of the most important reasons
for [federal officer] removal is to have the validity of the
defense of official immunity tried in a federal court.” Id. at
407. Indeed, if a party seeking federal officer jurisdiction
cannot articulate a colorable federal defense, remand is
appropriate. See Durham, 445 F.3d at 1251. None of these
principles for federal officer jurisdiction, however, are
present in this case.
Decisions of this Court confirm that the “acting
under” clause is limited to those who aid or assist federal
officers in performing official functions. See Davis v. South
Carolina, 107 U.S. 597, 599-600 (); Maryland v. Soper, 270
U.S. 9, 30-32 (1926); City of Greenwood v. Peacock, 384
U.S. 808, 821 n.1, 823 n.20 (1966). Under this standard, a
private commercial actor, such as Petitioner, has no claim
to federal officer jurisdiction.
2. This case involves the regulatory scheme for
prescribing and enforcing national aviation safety
standards—the Federal Aviation Regulations (FARs).
See 14 C.F.R. Parts 1-147, 170-71. In the Federal Aviation
Act (the Act), Congress directed the Secretary of
Transportation to establish minimum standards for
aircraft design. United States v. S.A. Empresa de Viacao
Aerea Rio Grandense (Varig Airlines), 467 U.S. 797,
804-05 (1984). To accomplish this, the Federal Aviation
Administration promulgated regulations specifying
minimum safety standards that aircraft manufacturers
must comply with before marketing their products. Id.
The FAA polices compliance through the issue of a “type
certificate” after determining that the product comports
with the minimum safety standards. Id. at 805-06; see
also 49 U.S.C. § 4470(a)(1). Pursuant to the Act, the

4
FAA can delegate certain inspection and certification
responsibilities to private individuals. Varig Airlines,
467 U.S. at 807. Most often, the delegated representatives
are employees of the manufacturer. Id. at 807. The Varig
Airlines court stated:
The FAA certification process is founded upon a
relatively simple notion: the duty to ensure that
an aircraft conforms to FAA safety regulations
lies with the manufacturer and operator, while
the FAA retains the responsibility for policing
compliance. Thus, the manufacturer is required
to develop the plans and specifications and
perform the inspections and tests necessary
to establish that an aircraft design comports
with the applicable regulations; the FAA then
reviews the date for conformity purposes by
conducting a ‘spot check’ of the manufacturer’s
work.
Id. at 816-17. This FAA certification process, as outlined
by this Court in Varig Airlines, remains controlling
precedent.
B. Factual & Procedural Background
1. This case arises out of a February 2018 helicopter
crash in the Grand Canyon. See Pet. App. 2a. John Udall,
a resident of the United Kingdom, was fatally injured in
the crash. See id. The subject helicopter was owned and
operated by several of the Defendants-Respondents.1 The
1. The named Defendants-Respondents are: Matthew
Hecker, Daniel Friedman, Brenda Halvorson, Geoffrey Edlund,

5
subject helicopter was manufactured by Petitioner Airbus
Helicopters, Inc. (AHI). See id.
Mary Riggs, as personal representative for Mr.
Udall, filed the underlying action in Nevada state court
against Petitioner and Defendants-Respondents, alleging
that the subject helicopter was defectively designed. See
id. Specifically, Plaintiffs-Respondents alleged that the
aircraft’s “fuel tank was not crash-resistant, and could
not withstand an impact of a minimal or moderate nature”
without causing a catastrophic fire. See id.
2. Petitioner removed this case to federal court
asserting federal subject matter jurisdiction pursuant to
28 U.S.C. § 1442(a)(1). See id. Plaintiffs-Respondents and
Defendants-Respondents separately moved to remand the
case to Nevada state court, asserting that Petitioner did
not meet any of the requirements of § 1442(a)(1). See id. at
3a. The district court disagreed with Petitioner’s position
and granted the motions to remand, concluding that:
Here, the FAA delegation under 49 U.S.C.
§ 44702(d)(1) does not allow AHI to create
or change substantive rules. See 49 U.S.C.
§ 44702(d)(1). Moreover, the delegation does not
allow AHI to manufacture gear that meets its
own self-adopted criteria. See id.; see also Lu
Junhong, 792 F.3d at 810. Rather, the relevant
regulation provides that “each applicant must
Elling B. Halvorson, John Becker, Elling Kent Halvorson, Lon
A. Halvorson, Scott Botth, Papillon Airways, Inc., DBA Papillon
Grand Canyon Helicopters (Papillon) and Xebec LLC. See Pet.
App. 2a.

6
make all inspections and tests necessary to
determine (1) compliance with the applicable
airworthiness, aircraft noise, fuel venting, and
exhaust emission requirements.” 14 C.F.R.
§ 21.33.
See Pet. App. 38a-39a. Consequently, the district court
concluded that Petitioner was merely complying with
the detailed regulations, and that such compliance was
insufficient to establish jurisdiction. See id. Accordingly,
the district court remanded the case back to state
court. See id. at 40a. The district court did not reach the
remaining requirements for removal under § 1442(a)(1).
See id. 29a-40a.
Petitioner appealed the district court’s remand
orders and the Ninth Circuit affirmed the district court’s
decision, again concluding that Airbus had not established
it was “acting under” a federal officer and thus could not
demonstrate that removal was appropriate. See id. at
15a-16a. In affirming, the Ninth Circuit relied upon this
Court’s decision in Watson v. Philip Morris Companies,
Inc.; noting that it agreed with this Court’s reasoning.
See id. at 14a. Specifically, the majority concluded that
Petitioner’s certification actions constituted “simple
compliance with the law” and, therefore, did not meet
the “acting under” standard articulated in Watson. See
id. In further support of this conclusion, the majority
emphasized Petitioner’s concession that it could not “make
design changes without approval from the FAA” and that
the “FAA has the authority to rescind any action taken by
AHI in connection with the certification process.” See id.
These facts confirmed that Petitioner “was duty-bound to
follow prescriptive rules set forth by the FAA, thus falling
within the ‘simple compliance with the law’ circumstance

7
that does not meet the ‘acting under’ standard” articulated
in Watson. See id.
Judge O’Scannlain dissented. See id. at 17a-28a.
Relying primarily on an Eleventh Circuit case that
predates Watson, as well as portions of the brief submitted
by the Solicitor General on behalf of the unsuccessful
party in the Watson case, the dissent concluded that
the majority opinion misapplied this Court’s decision in
Watson. See id. at 17a. A petition for a rehearing and a
petition for a rehearing en banc were denied. See id. at
41a-42a.
REASONS FOR DENYING THE PETITION
This case is not appropriate for review. The Ninth
Circuit expressly acknowledged, relied upon, and applied
this Court’s interpretation of “acting under” as set forth in
Watson. Indeed, the Ninth Circuit stated that this Court’s
decision in Watson “fully support[s] the proposition that
[Petitioner’s] mere compliance with federal regulations
did not satisfy the ‘acting under’ requirement of § 1442(a)
(1).” See Pet. App. 16a. Contrary to Petitioner’s suggestion,
the Ninth’s Circuit’s decision here does not deviate from
this Court’s precedent, but instead, faithfully applies it.
Additionally, the Ninth Circuit’s decision here does not
create a split of authority under the federal Circuits. To
the contrary, the Ninth Circuit confirms that its decision
brings it in line with Seventh Circuit, the only other
Circuit Court to address this issue since the advent of
the FAA’s ODA program. The Eleventh Circuit’s decision
in Magnin v. Teledyne Cont’l Motors, 91 F.3d 1424 (11th
Cir. 1996), heavily relied upon by both the Petitioner and
Judge O’Scannlain in his dissent, pre-dates both this

8
Court’s Watson decision, and the 2005 creation of the
FAA’s ODA program. The Magnin case, therefore, is of
extremely limited value here. The Ninth Circuit expressly
acknowledges that its decisional rule comports with not
only Watson, but the Seventh Circuit as well and, thus,
no split of Circuit authority exists.
Finally, since this Court’s decision in Watson and the
creation of the ODA program, this issue has only reached
the Federal Circuit Courts of Appeal on two occasions,
including the present case. The rarity of this occurrence
controverts Petitioner’s claim that review by this Court
is necessary to resolve an important or common issue. In
contrast, the issue is rare and the law is both established
and unified. Moreover, because the record is factually and
legally undeveloped, review at this time will not resolve
issue of whether Petitioner is entitled to federal officer
jurisdiction.
A. The Ninth Circuit’s Decision Is In Line With This
Court’s Decision in Watson and Its Reasoning that
Federal Officer Jurisdiction Is Not Appropriate
When The Private Actor Is Merely Complying With
The Law.
In the aviation industry, it is fundamentally accepted
that the FAA sets the rules and minimum safety standards
for aircraft design, and that manufacturers, whether ODA
holders or not, are required to comply with those rules
and standards. The petition should be denied because the
Ninth Circuit’s decision is in line with Watson’s holding
that mere compliance with federal directives does not
satisfy the ‘acting under’ requirement of § 1442(a)(1), and
it expressly applies Watson’s rationale for denying federal
officer jurisdiction.

9
1. In Watson, the plaintiffs Lisa Watson and Loretta,
sued Philip Morris in Arkansas state court. Watson,
551 U.S. at 146. The plaintiffs’ complaint focused on
“advertisements and packaging that described certain
Philip Morris brand cigarettes (Marlboro and Cambridge
Lights) as ‘light,’ a term indicating lower tar and
nicotine levels than those present in other cigarettes.”
Id. Specifically, the plaintiffs’ allegations were related to
“the design and performance of Philip Morris cigarettes
that are tested in accordance with the Cambridge Filter
Method, a method that ‘the tobacco industry [uses] to
measure tar and nicotine levels in cigarettes.’” Id. (citation
and one set of quotations omitted; brackets in original).
Plaintiffs further alleged that “Philip Morris cigarettes
delivered ‘greater amounts of tar and nicotine when
smoked under actual conditions’ than the adjective ‘light’
as used in the advertising indicated. Id. (citation and one
set of quotations omitted).
Relying on the federal officer removal statute,
Philip Morris removed the case. Id. The district court,
in turn, concluded that removal was appropriate under
the federal officer removal statute. Id. The district court
concluded that “the complaint attacked Philip Morris’
use of the Government’s method of testing cigarettes”
and, therefore, the plaintiffs had sued Philip Morris for
“‘act[s] taken ‘under’ the Federal Trade Commission.” Id.
(emphasis and brackets in original).
The Eighth Circuit affirmed, emphasizing the “FTC’s
detailed supervision of the cigarette testing process.” Id.
at 147. “The Eighth Circuit concluded that Philip Morris
was ‘acting under’ federal ‘officer[s],’ namely, the FTC, with
respect to the challenged conduct.” Id. (citation omitted;
brackets in original). This Court granted certiorari. Id.

10
Before this Court, Philip Morris argued that “its
activities at issue here did not consist simply of compliance
with regulatory laws, rules, and orders.” Id. at 154. Philip
Morris contended “that the FTC, after initially testing
cigarettes for tar and nicotine, ‘delegated authority’ for
that task to an industry-financed testing laboratory.” Id.
(citation omitted; emphasis in original). Philip Morris
asserted that it was acting under that delegation. Id. In
sum, Philip Morris claimed that because of its delegated
authority to certify compliance in the highly regulated
tobacco industry, where its work was closely monitored
and supervised by the Federal Trade Commission, Philip
Morris was acting under a federal officer. Id. This Court,
in a unanimous decision, disagreed, explaining:
A private firm’s compliance (or noncompliance)
with federal laws, rules, and regulations
does not by itself fall within the scope of the
statutory phrase ‘acting under’ a federal
‘official.’ And that is so even if the regulation
is highly detailed and even if the private firm’s
activities are highly supervised and monitored.
A contrary determination would expand the
scope of the statute considerably, potentially
bringing within its scope state-court actions
filed against private firms in many highly
regulated industries.
Id. at 153. This Court further noted in Watson that
“[n]either language nor history, nor purpose lead us to
believe that Congress intended such expansion.” Id.
The Ninth Circuit explicitly followed this reasoning
in its decision, stating that it fundamentally agreed with
the holding from Watson, and that its decision was in

11
line with that holding. See Pet. App. 15a-16a. The Ninth
Circuit explained that Petitioner, as an ODA holder,
“must perform all delegated functions in accordance
with a detailed, FAA-approved procedures manual to
each [Designation] holder.” See id. at 13a (emphasis
in original; brackets in original; one set of quotations
omitted). The Ninth Circuit found the language “in
accordance with” and “FAA-approved” suggesting of a
“relationship based on compliance rather than assistance
to federal officers.” See id. at 13a (one set of quotations
omitted). The Ninth Circuit further noted that “one of the
regulations circumscribing an FAA delegee’s authority to
certify provides that ‘each applicant must allow the FAA
to make any inspection and any flight and ground test
necessary to determine compliance with the applicable
requirements of this subchapter.” See id. at 13a-14a (citing
14 C.F.R. § 21.22) (emphasis added by Ninth Circuit). The
Ninth Circuit concluded that “[t]his language explicitly
denotes compliance and, as discussed, mere compliance
with federal directives does not satisfy the ‘acting under’
requirement of § 1442(a)(1), even if the actions are ‘highly
supervised and monitored.’” See id. at 14a (citing Watson,
551 U.S. at 153).
Perhaps most notably, the Ninth Circuit stated:
AHI concedes that it cannot make design
changes without approval from the FAA. At
oral argument, AHI even acknowledged that
the FA A has the authority to rescind any
action taken by AHI in connection with the
certification process. These facts demonstrate
that AHI was duty-bound to follow prescriptive
rules set forth by the FA A, thus falling

12
within the “simple compliance with the law”
circumstance that does not meet the “acting
under” standard. Gonclaves, 865 F.3d at 1247;
see also Fidelitad, 904 F.3d at 1100. In sum,
AHI’s actions as insurer of Supplemental
Certificates fit squarely within the precept of
mere compliance with regulatory standards and
outside the “acting under” provision of 1442(a)(1).
Waston, 551 U.S. at 153, 127 S. Ct. 2301.
See id. at 14a. Stated another way, Petitioner acknowledged
the scope of their role and authority to act as an ODA
holder was not only within the specific confines of the
FAA’s regulations, but explicitly subject to the approval
of, and potential rejection by, the Federal Aviation
Administration. Consequently, Petitioner’s role was
marked by regulatory compliance, rather than authority.
The Ninth’s Circuit decision is therefore directly in line
with the reasoning from Watson. See Watson, 551 U.S.
at 153.
2. Petitioner relies heavily on Judge O’Scannlain’s
dissent to support its assertion that the Ninth Circuit
misapplied Watson. Judge O’Scannlain’s dissent, however,
as noted by the majority, relies on an inapplicable Eleventh
Circuit case—Magnin, 91 F.3d 1424—as well as the
Solicitor General’s opinion in Watson. See Pet. App. 11a.
Magnin was decided in 1996, well before the FAA
adopted the ODA program, and before this Court decided
Watson. Magnin’s reasoning is inapplicable to today’s
regulatory scheme and, therefore, provides no assistance
in determining when a private entity is “acting under” a
federal officer. As to the Solicitor General’s opinion from

13
Watson, the Ninth Circuit points out that this Court has
already rejected that argument once before. See Pet. App.
11a. Petitioner’s reliance on that opinion now, therefore,
is questionable.
The majority accurately highlights the fundamental
flaws in the dissent’s analysis:
The dissent seeks to minimize the persuasive
power of Fidelitad by commenting that a
different statutory regime was involved. See
Dissenting Opinion, p. 995 n. 3. However, the
dissent’s summary comment elides the fact that
we were confronted with the identical issue in
Fidelitad that we resolve in this case, whether
the “acting under” requirement of § 1442(a)(1)
was satisfied. The dissent also fails to grapple
with the reality that in Fidelitad, we cited with
approval the Seventh Circuit’s Lu Junhong
decision. Finally, despite criticizing the
precedent cited by the majority, the dissent did
not, and cannot, cite one case from this circuit
that supports its analysis of the “acting under”
requirement. The best the dissent can muster
is a case from the Eleventh Circuit, Magnin v.
Teledyne Cont’l Motors, 91 F. 3d 1424 (11th Cir.
1996), decided eleven years prior to Watson and
an argument form a Solicitor General that was
rejected by the Supreme Court. See Dissenting
Opinion, pp. 993-94.
See Pet. App. 11a. Put differently, the dissent’s analysis—
and by virtue, Petitioner’s analysis—is in fact at odds
with Watson.

14
3. Finally, and perhaps most importantly, the
underlying policy of Watson was to prevent a proverbial
“opening of the floodgates” path to federal court for
private firms that merely comply with federal laws and
regulations—as is the case with Petitioner. As this Court
explained in Watson, granting private firms unfettered
access to federal court, “would expand the scope of the
statute considerably, potentially bringing within its scope
state-court actions filed against private firms in many
highly regulated industries.” Watson, 551 U.S. at 153.
This type of expansion would contravene the long standing
principal articulated by this Court in Varig Airlines;
that is, “the duty to ensure that an aircraft conforms to
FAA safety regulations lies with the manufacturer and
operator, while the FAA retains the responsibility to
for policing compliance. Varig Airlines, 467 U.S. at 816.
Allowing Petitioner to forever claim the status of “acting
under” a federal officer will undoubtedly lead to the very
scenario this Court sought to prevent in Watson. “Neither
language nor history, nor purpose lead us to believe that
Congress intended such expansion.” Watson, 551 U.S. at
153.
The Ninth Circuit faithfully applied this Court’s
reasoning in Watson; a fact evident from the Court’s
analysis and its express statements to that effect. Further
review by this Court is unnecessary and unwarranted.

15
B. The Ninth Circuit’s Decision Does Not Create
a Split of Authority Among the Circuits, But Is
Instead In Line With The Circuit Courts That Have
Decided Similar Issues Post-Watson.
The Ninth Circuit expressly noted that its decision
brings it in line with the other Circuits that have
addressed this issue. Indeed, all federal circuit courts
to have addressed whether an FAA delegation supports
“acting under” status pursuant to of § 1442(a)(1) after
Watson have reached the same outcome, and this case
is no exception. Consequently, and despite Petitioner’s
suggestion, there is no split of Circuit authority on this
issue.
1. As a preliminary matter, Petitioner’s reliance on
Magnin, is inapposite. Magnin was decided eleven years
before Watson, and nine years before the FAA’s adoption
of the ODA program. See Magnin, 91 F.3d 1424. Magnin’s
analysis, therefore, is wholly inapplicable to the modern
regulatory scheme involved in this case. When laws
and regulations change, so does the interpretation and
application of those laws and regulations. Magnin should
not be a factor in this Court’s analysis.
2. When Magnin is properly removed from the
analysis, Petitioner’s assertion that a split in circuit
authority exists relies solely on the claim that the Ninth
Circuit’s decision and the Seventh Circuit’s decision in
Lu Junhong v. Boeing Co., 792 F.3d 805 (7th Cir. 2015)
are at odds. They are not. Indeed, not only does the
Ninth Circuit explain precisely how its decision comports
with the Seventh Circuit’s decision in Lu Junhong, an
analysis of these two cases also shows that both the Ninth

16
and Seventh Circuits properly adhered to this Court’s
reasoning in Watson.
In Lu Junhong, the issue involved the design of a plane
that broke apart during a flight. Lu Junhong, 792 F.3d at
807. Boeing contended that “the FAA has granted Boeing
authority to use FAA-approved procedures to conduct
analysis and testing required for the issuance of type,
production, and airworthiness certification for aircraft
under Federal Aviation Regulations.” Id. at 808. Boeing
asserted that by “carrying out those functions, Boeing
is subject to FAA control, and it acts as a representative
of the FAA Administrator.” Id. The Seventh Circuit
disagreed, explaining: “we know from Watson v. Philip
Morris Cos. … that being regulated, even when a federal
agency ‘directs, supervises, and monitors a company’s
activities in considerable detail,’ is not enough to make a
private firm a person ‘acting under’ a federal agency.” Id.
at 809 (citation omitted). The Seventh Circuit concluded
with the following warning: “after today it would be
frivolous for Boeing or a similarly-situated defendant to
invoke § 1442 as a basis of removal.” Id. at 813.
Petitioner ignores the Seventh Circuit’s reasoning,
but instead, focuses solely the method for reaching its
conclusion—not the conclusion itself. That is, Petitioner
asserts that the Seventh Circuit inferred that a critical
factor for concluding whether an entity is “acting under”
a federal officer is whether the party “engaged in ‘rule
making rather than rule compliance.’” Petition for Cert.
pp. 16-17. Petitioner then seizes upon the fact that here, the
Ninth Circuit acknowledged it was not adopting the specific
“rule making vs. rule compliance” rubric, asserting this
distinction creates the split of decisional authority among

17
the circuits. Id. This position is erroneous; the Ninth
Circuit squarely addressed this very issue in its opinion.
Acknowledging that it was not adopting the precise
rule articulated by the Seventh Circuit, i.e. the “rule
making vs. compliance” distinction, the Ninth Circuit
nevertheless explained that the Seventh Circuit’s
reasoning, and its ultimate decision in Lu Junhong, upheld
the fundamental principles of Watson:
Although we cited Lu Junhong with approval
in Fidelitad, 904 F.3d at 1100, we notably
did not incorporate the Seventh Circuit’s
rule-making-rule compliance dichotomy.
Rather, we referenced Lu Junhong for the
proposition that compliance with the law “does
not bring a private actor within the scope of
the federal officer removal statute” and neither
does delegation of authority “to self-certify
compliance with the relevant regulations.”
See Pet. App. 13a. Moreover, Lu Junhong upheld the
longstanding principle articulated by this Court in Varig
Airlines. Varig Airlines, 467 U.S. at 816. (“the duty to
ensure that an aircraft conforms to FAA safety regulations
lies with the manufacturer and operator, while the FAA
retains the responsibility for policing compliance.”).
The Ninth Circuit recognized that while the Seventh
Circuit took a slightly different approach towards its
decision, the core concept—and the result—were the same:
mere compliance with federal regulations is insufficient
to bring a private actor within the scope of § 1442(a)(1)’s
“acting under” requirement. There is no dispute that

18
the Ninth Circuit and the Seventh Circuit agree on this
fundamental principal from Watson. Accordingly, there
is no circuit split and, consequently, no reason for this
Court to intervene.
3. Finally, Petitioner suggests that review would
promote clarity on when federal officer jurisdiction is
appropriate in the non-aviation context. Respectfully,
this argument lacks merit; Watson has already clarified
this issue. Both the Ninth Circuit below, and the Seventh
Circuit in Lu Junhong, were able to appropriately
apply Watson—a non-aviation case that deals with the
regulation of the cigarette testing process—correctly to
the field of aviation. Moreover, both courts reached the
correct conclusion: private actors that merely comply
with federal laws and regulations are not “acting under”
the FA A for purposes of § 1442(a)(1). Accordingly,
Watson provides sufficient clarity for when federal officer
jurisdiction is appropriate in industries across the board.
Review, therefore, is not necessary.
Moreover, Petitioner’s suggestion that more “clarity”
is needed is, in and of itself, an erroneous proposition; a
concept fabricated by Petitioner to create the appearance
Supreme Court review is required. To the contrary, the
relationship between the FAA and aircraft manufacturers
has been well-defined, and well-understood within
the aviation industry for decades. Beyond Petitioner’s
attempts here, there is no legitimate question percolating
in the aviation community as to whether manufacturers
are really “acting under” federal authority; they are not.
As this Court noted in Varig Airlines, the concept is
straightforward: The FAA, as the sole arbiter for aviation
safety, creates and promulgates regulations, with which

19
manufacturers then have a responsibility to comply. The
FAA remains at all times the agency responsible for
creating those regulations, and for enforcing compliance.
See Varig Airlines, 467 U.S. at 816-17: “[t]he FA A
certification process is founded upon a relatively simple
notion: the duty to ensure that an aircraft conforms to
FAA safety regulations lies with the manufacturer and
operator, while the FAA retains the responsibility for
policing compliance.” Petitioner’s suggestion otherwise, or
that this issue is misunderstood or requires clarification,
is quite simply contrary to reality, the regulatory scheme,
and the long-standing custom and practices within this
Nation’s aviation industry.
C. The Rarity Of This Issue Reaching The Federal
Circuit Courts Of Appeal Since Watson And The
Undeveloped Factual And Legal Issues Below
Render Review By This Court Inappropriate and
Premature.
Since Watson and the creation of the ODA program,
the issue of whether a private actor and ODA holder is
acting under the FAA has only reached the Federal Circuit
Courts of Appeal twice, including the present case. See Lu
Junhong, 792 F.3d 805; Pet. App. 1a-28a. Moreover, both
of those cases identify, rely upon, and expressly follow
Watson. The rarity of this issue alone renders this case
inappropriate for Supreme Court review. Furthermore,
the outstanding questions that remain as to whether the
federal officer removal statute applies—that is, whether
there is a causal nexus and a colorable federal defense—
mean that any action taken by this Court now would not
resolve the issue of whether Petitioner is entitled to federal
officer jurisdiction, leaving open a host of fact-based

20
determinations potentially resulting in more confusion,
rather than clarity.
1. In addition to the Ninth Circuit’s decision here,
the only other Circuit Court of Appeals to address the
issue of whether a private action that is the holder of
an ODA is “acting under” pursuant to § 1442(a)(1) is the
Seventh Circuit. See Lu Junhong, 792 F.3d 805. Relying
on Watson, both the Ninth and Seventh Circuit concluded
that those private actors were not “acting under” the FAA
so as to create federal officer jurisdiction. See Lu Junhong,
792 F.3d at 809; see Pet. App. 15a-16a.
Petitioner cites to a number of unpublished district
court opinions to support its assertion that this case
represents an issue that continuously arises nationally.
Petition for Cert. pp. 22-23. In addition to being
unpublished, not one of these district court cases was
taken up on appeal. This fact, at minimum, shows that this
case is not appropriate for review. This issue is settled.
No further review is necessary. Any such review would
only serve to confuse what is already established law in
the post-Watson world: private actors that merely comply
with federal laws and regulations are not “acting under”
the FAA for purposes of § 1442(a)(1). Petitioner’s request
for review, therefore, must be denied.
2. Even if this Court granted review, and even if
Petitioner ultimately prevailed in its argument that it
was “acting under” the FAA pursuant to § 1442(a)(1),
the issue of whether Petitioner is entitled to federal
officer jurisdiction would not be resolved. In addition to
establishing that it is a ‘person’ within the meaning of
§ 1442(a)(1), to be entitled to federal officer jurisdiction,

21
Petitioner must also establish that there is a causal nexus
between its actions, taken pursuant to a federal officer’s
directions, and plaintiff’s claims; and that it can assert a
colorable federal defense. See Durham, 445 F.3d at 1251.
Neither the district court nor the Ninth Circuit
reached these additional factors. Because analysis of
these factors is particularly fact-driven, the record here
has not been properly developed for this Court to render
a decision on these elements and, ultimately, determine
whether Petitioner is entitled to federal officer jurisdiction.
Supreme Court review at this time, focused on a single
element of a multi-element analysis, could conceivably
result in substantially more confusion than clarity. Review
at this time, therefore, is premature.
3. Analysis of the remaining factors of the federal
officer removal statute show that even if Petitioner were
found to be “acting under” the FAA, it is still not entitled
to federal officer jurisdiction.
First, Petitioner cannot establish a causal nexus
between its responsibilities discharged as an ODA holder
and Plaintiffs-Respondents’ claims. This requirement
mandates that Petitioner establish that the underlying
lawsuit “has arisen out of the acts done by [it] under
color of federal authority and in enforcement of federal
law.” Mesa v. California, 489 U.S. 121, 131-32 (1989). To
establish a sufficient nexus, Petitioner must “by direct
averment exclude the possibility that [the underlying
claim] was based on acts or conduct of [it] not justified by
[its] federal duty.’” Id. at 132 (citation omitted).

22
In the Estate of Hecker v. Robinson Helicopter Co.,
2013 WL 5674982 (E.D. Wash. 2013), defendant Lycoming,
the manufacturer of a helicopter engine, argued that
removal to federal court was warranted by “its obligations
as an ODA holder to monitor the ongoing airworthiness
of the subject engine and to correct or warn of any unsafe
conditions pursuant to 14 C.F.R. § 183.63.” Estate of
Hecker, 2013 WL 5674982 at 3. In remanding the case,
the court noted that “Plaintiff has not sued Lycoming
for failure to meet its obligation as an ODA holder under
federal law. Instead, Plaintiff has asserted state law
negligence and product liability claims—claims which
do not arise from Lycoming’s status as an ODA holder.”
Id. The court concluded that because “there is no causal
connection between Plaintiff’s claims and an action taken
pursuant to Lycoming’s federally-delegated authority,”
removal under the federal officer removal statute was not
warranted. See id.
Similarly, in Swanstrom v. Taledyne Continental
Motors, Inc., 531 F. Supp. 2d 1325 (S.D. Ala. 2008), an
aircraft engine manufacturer argued its FAA designated
representative afforded it federal officer jurisdiction.
Swanstrom, 531 F. Supp. 2d at 1328-31. The court
disagreed and remanded the case because the complaint
did not name a designated representative acting in that
capacity. Id. at 1332-33. The claims, therefore, were based
on the defendant’s status as a manufacturer, not on any
status as a designated representative. Id.
These cases are on point with the instant case.
Here, Plaintiffs-Respondents have not sued over
Petitioner’s discharge of its certification responsibilities.
Plaintiffs-Respondents have sued Petitioner in its

23
capacity as manufacturer of the subject aircraft.
Plaintiffs-Respondents’ claims are based solely on state
law negligence and products liability law. In no way
have Plaintiffs-Respondents asserted that Petitioner’s
discharge of ODA obligation gave rise to liability.
Consequently, there is no causal connection between
Petitioner’s ODA status and the claims against it in the
underlying action.
Second, Petitioner does not have a colorable federal
defense. This Court has stated that “[f]ederal officer
removal under § 1442(a) must be predicated upon
averment of a federal defense.” Mesa, 489 U.S. at 139.
Here, Petitioner’s asserted federal defense is preemption.
Specifically, Petitioner asserts that “state-law designdefect claims are preempted by federal law, given that the
design was compliant with federal aviation standards.”
Petition for Cert. p. 7.
The Third Circuit recently addressed the issue of
whether the Federal Aviation Act provides a colorable
federal defense in two separate opinions arising out of the
same underlying case. In Sikkelee v. Precision Airmotive
Corp., 822 F.3d 680 (3rd Cir. 2016) (hereinafter Sikkelee
I), the Third Circuit considered whether the Federal
Aviation Act “field-preempted” products liability under
state laws. Sikkelee I, 822 F.3d at 694-96. The Court held
that it did not, noting:
the fact that the regulations are framed in terms
of standards to acquire FAA approvals and
certificates—and not as standards governing
manufacture generally—supports the notions
that the acquisition of a type certificate is

24
merely a baseline requirement and that, in the
manufacturing context, the statutory language
indicating that these are “minimum standards,”
49 U.S.C. § 44701, means what it says.
Id. at 694.
Subsequently, in Sikkelee v. Precision Airmotive
Corp., 907 F.3d 701 (3rd Cir. 2018) (hereinafter Sikkelee
II) the Third Circuit considered whether the Federal
Aviation Act conflict-preempted products liability under
state laws. Sikkelee II, 907 F.3d at 708. As with fieldpreemption, the Third Circuit held that it did not, noting
that “[t]he nature of FAA regulations and Lycoming’s
interactions with the FAA—including the changes it made
to its type certificate—demonstrate that Lycoming could
have—indeed it had—adjusted its design.” Id. at 713.
The Sikkelee II court further stated “allowing state-law
claims to proceed in this context complements, rather than
conflicts with, the federal scheme.” Id. at 714. “Moreover,
‘immuniz[ing] aircraft and aviation component part
manufacturers from liability for their defective product
designs’ is ‘inconsistent with the [Federal Aviation] Act
and its goal of fostering aviation safety.’” Id. at 715 (citation
omitted; brackets in original). Indeed, the FARs set the
floor for minimum safety standards. See Estate of Becker
v. Avco Corp., 387 P.3d 1066, 1070 (Wash. 2017). Nothing
prohibits Petitioner from complying with these federal
regulations and state law tort duties.
On January 13, 2020, this Court denied review for
Sikkelee II. Avco Corp. v. Sikkelee, 140 S. Ct. 860 (2020). In
doing so, this Court left in place the Third Circuit’s holding
that state-law design-defect claims are not preempted by

25
federal law. Petitioner, therefore, does not have a colorable
federal defense.
This case is not appropriate for review. Since Watson,
the issue of whether a private actor and ODA holder is
acting under the FAA has only reached the Federal Circuit
Courts of Appeal twice, with the same result. The rarity of
this issue presenting itself renders this case inappropriate
for review. Furthermore, the remaining elements that
must be satisfied in order for Petitioner to be entitled
to federal officer jurisdiction make review at this time
premature. Finally, analysis of the remaining factors show
that even if Petitioner were found to be “acting under” the
FAA, it is still not entitled to federal officer jurisdiction.
Review at this time, therefore, is not appropriate.
CONCLUSION
For the foregoing reasons, Airbus Helicopters, Inc.’s
Petition for a Writ of Certiorari should be denied.
Dated:May 22, 2020
Respectfully submitted,
William J. K att, Esq.
Counsel of Record
Kevin F. Geary, Esq.
Wilson Elser Moskowitz
Edelman & Dicker LLP
740 North Plankinton Avenue,
Suite 600
Milwaukee, WI 53203
(414) 276-8816
william.katt@wilsonelser.com

26
Patrick J. Kearns, Esq.
Wilson Elser Moskowitz
Edelman & Dicker LLP
401 West A Street, Suite 1900
San Diego, CA 92101
(619) 321-6200
Attorneys for Respondents
Matthew Hecker, Daniel
Friedman, Brenda
Halvorson, Geoffrey
Edlund, Elling B.
Halvorson, John Becker,
Elling Kent Halvorson,
Lon A. Halvorson, Papillon
Airways, Inc., d/b/a
Papillon Grand Canyon
Helicopters, and Xebec
LLC.

